rl

2311 Douglas Street A .
Omaha, Nebraska 68102-1214 Le ga l B tiefs

1-800-225-6964
(402) 342-2831

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

LAUREL ZUCKERMAN, AS ANCILLARY
ADMINISTRATRIX OF THE ESTATE
OF ALICE LEFFMANN,
Petitioner,
Vv.
THE METROPOLITAN MUSEUM OF ART,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 24th day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
LAWRENCE M. KAYE MARY-CHRISTINE SUNGAILA
HOWARD N. SPIEGLER Counsel of Record
ROSS L. HIRSCH WILLIAM FELDMAN

YAEL M. WEITZ
HERRICK, FEINSTEIN LLP
Two Park Avenue

New York, New York 10016
Telephone: (212) 592-1400
Ikaye@herrick.com

Subscribed and sworn to before me this 24th day of January, 2020.

MARCO A. PULIDO
HAYNES AND BOONE, LLP
600 Anton Blwvd., Suite 700
Costa Mesa, California 92626
Telephone: (949) 202-3000
mce.sungaila@haynesboone.com

Counsel for Petitioner

Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska

My Commission Expires Nov 24, 2020

 

Notary Public

Affiant 39006
SERVICE LIST

David Bowker, Esq.

Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, NW
Washington, DC 20006

202-663-6558
david.bowker@wilmerhale.com

Michael David Gottesman, Esq.

Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center

250 Greenwich Street

New York, NY 10007

212-295-6248
Michael.gottesman@wilmerhale.com

Attorneys for Respondent The Metropolitan Museum of Art
